September 29, 2010

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Air Networks – Federal Express
         Transportation Agreement – National Analysis
         (Report Number NL-AR-10-010)

This report presents the results of our self-initiated audit focusing on the Federal
Express (FedEx) Transportation Agreement. The objective of our audit was to assess
national issues related to processes, guidance, and oversight in implementing the
FedEx Transportation Agreement and associated operations (Project Number
10XG033NL000). Our review was conducted to further address systemic or significant
issues identified in our prior FedEx Transportation Agreement audits of the eight Postal
Service areas. See Appendix A for additional information about this audit.

Postal Service transportation managers are required to balance service and cost in
determining the best transportation mode, and FedEx transportation is usually more
expensive than commercial air carrier or surface transportation. However, the FedEx
contract requires that the Postal Service provide a minimum amount of mail to FedEx
for transportation, and if the minimums are not met, the Postal Service pays for unused
space. The Postal Service uses Terminal Handling Services (THS) contractors to
prepare and load mail into containers for transport on FedEx planes. The contract also
requires the Postal Service to tender certain volumes of mail to FedEx by specific times
in order for the mail to be loaded on scheduled flights. The Postal Service is also
required to pay FedEx for sorting mail at the Memphis hub, but the Postal Service can
avoid these costs by using “bypass” containers with mail all bound for the same
destination airport to bypass the sorting operations at the FedEx Memphis hub.

Conclusion

Postal Service Headquarters needs to strengthen nationwide processes, guidance, and
monitoring in implementing the FedEx Transportation Agreement to ensure the most
efficient and effective transportation of mail. Prior audits focusing on the FedEx
Transportation Agreement in the eight Postal Service areas determined the Postal
Service incurred unnecessary costs of more than $94 million, because local officials
were: improperly transporting surface mail classes on FedEx; using FedEx instead of
lower cost commercial air carriers to transport First-Class Mail® (FCM); and not
maximizing the use of by-pass containers to avoid FedEx handling charges. We
determined these conditions existed because local employees were not: properly
Air Networks – Federal Express Transportation Agreement –                                          NL-AR-10-010
 National Analysis

segregating the mail during distribution operations; following air transportation mail
assignment priorities; adequately identifying and separating bypass mail before sending
it to THS contractors; and providing by-pass mail to THS contractors in a timely manner.

Management from the areas generally agreed with our findings and took action to
address our recommendations in the prior reports. However, based on operational
challenges cited by local management in their responses to our audits, and on our
review of headquarters’ oversight of FedEx operations, additional nationwide processes,
guidance, and monitoring should be strengthened to ensure more efficient and effective
operations. Specifically, we determined that headquarters’ Network Operations could
more effectively:

      Monitor and avoid transportation of surface mail classes on FedEx.

      Validate the accuracy of mail capacities provided by commercial carriers, ensure
       carriers’ comply with providing the capacities, and address local officials’
       concerns over the ability of carriers to handle provided capacities.

      Adjust mail volume arrival profiles (VAP)1 for THS locations, or adjust mail tender
       times to FedEx to ensure THS contractors have sufficient time to build planned
       by-pass containers.

      Reinforce existing policies and procedures for processing and assigning mail, for
       building by-pass containers, and for tendering mail to FedEx.

In addition, the Postal Service needs to standardize oversight at THS contract sites to
monitor FedEx operations and ensure local compliance with established processes and
procedures. If further action is not taken, the Postal Service could continue to incur
unnecessary costs for transporting mail on FedEx instead of using cheaper
transportation means, and for sometimes using FedEx to sort the mail. See Appendix B
for detailed analysis.

Management Actions

Postal Service headquarters’ management took steps during our audits to improve
oversight of the FedEx Transportation Agreement, including:

        Sharing Transportation Cost System/Cost and Revenue Analysis (TRACS/CRA)2
         data with appropriate headquarters officials to monitor and track the volume and
         costs of transporting Standard, Periodicals, and Package Services mail classes
         transported on the FedEx Day Turn Network.

1
  VAPs are part of the THS contracts and require the Postal Service to tender specific volumes of mail to the THS
contractors by certain times.
2
  TRACS is an origin-based, continuous, ongoing statistical sampling system designed to estimate certain elements
used to associate volumes of each class of mail to the cost of the mode of transportation upon which it is dispatched.




                                                          2
Air Networks – Federal Express Transportation Agreement –                   NL-AR-10-010
 National Analysis

      Holding a formal presentation to all plant managers concerning the causes and
       cost impacts of transporting surface mail classes on the FedEx Day Network.

      Instructing areas to begin monitoring each of their plant’s sort programs to
       determine those not properly segregating mail classes for certain distribution
       operations, and set up alerts to identify non-compliance.

      Preparing instructions to provide to plants to comply with required bypass
       container separations prior to dispatch to THS sites.

      Beginning an in-depth review of THS VAPs to determine established arrival time
       feasibility and current compliance with requirements.

We recommend the vice president, Network Operations:

1. Routinely provide headquarters and area management with data, including
   Transportation Cost System/Cost and Revenue Analysis data, used to monitor and
   track the volume and additional costs for flying surface mail classes on Federal
   Express.

2. Work collaboratively with the areas to identify and address capacity issues, real or
   perceived, with commercial carriers and ensure carriers comply with stated
   capacities.

3. Adjust mail volume arrival profiles or Federal Express tender times where possible to
   ensure Terminal Handling Services contractors have time to build planned by-pass
   containers.

4. Reinforce existing policies and procedures, and provide additional guidance and
   training as necessary, for processing and assigning mail to Federal Express
   (FedEx), for building bypass containers, and for ensuring mail arrives at Terminal
   Handling Services locations to meet FedEx contract mail tender time requirements.

5. Standardize Postal Service oversight at Terminal Handling Services operations to
   ensure adequate on-site Postal Service representation to monitor Federal Express
   operations and ensure local compliance with established processes and procedures.

Management’s Comments

Management generally agreed with our findings and recommendations. In addition to
the measures management took during the course of this audit, including a formal
presentation to all plant managers and instructions to areas to monitor their plants’ sort
programs, management cited additional efforts toward the prevention of the issues
addressed in this report. These efforts include the development of mail history tracking
system reports that are shared daily with the field to identify surface mail volume
processed within a preferential mail stream; weekly teleconferences with area



                                                   3
Air Networks – Federal Express Transportation Agreement –               NL-AR-10-010
 National Analysis

managers to address capacity issues and non-compliance with policies and procedures
related to the assignment and tender of mail to FedEx; and the evaluation of an
approach to standardize oversight at THS operations. In addition, management is
conducting a Lean Six Sigma project to identify root causes and develop solutions that
will be implemented nationally to reduce surface mail flown and identify route causes
related to the failure to tender mail in accordance to the established VAPs. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and management’s corrective actions
should resolve the issues identified in the report. We will continue working with
management to identify and monitor timelines for reporting results in the process of
closing the significant recommendations.

The OIG considers all the recommendations significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Cindy F. Mallonee
    Frank Neri
    Corporate Audit and Response Management




                                                   4
Air Networks – Federal Express Transportation Agreement –                  NL-AR-10-010
 National Analysis



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In January 2006, the Postal Service formalized a nationwide integrated air strategy for
mail transportation and briefed the Board of Governors. Management explained that the
prior network of passenger airlines was less costly, but also less reliable than other air
transportation contractors such as FedEx. Under the strategy, the Postal Service
intended to reduce the reliance and number of passenger airlines carrying mail; expand
existing air transportation with FedEx and other air cargo carriers; and, where possible,
shift mail moved by air to less costly ground transportation. Officials emphasized that
the integrated air strategy was intended to increase air carriers’ on-time performance,
create air network redundancy, improve flexibility, enhance security and reduce costs by
making contracting more competitive and allowing the Postal Service to eliminate
infrastructure.

Passenger Airlines – On June 30, 2006, when the Postal Service’s transportation
contracts with passenger airlines expired, they discontinued most passenger airlines as
domestic air transportation contractors. On September 29, 2006, the Postal Service
announced new air transportation contracts with select passenger airlines. The vice
president, Network Operations, explained that by relying on passenger airlines with
established records of performance, the new contracts would help achieve on-time
delivery and provide higher levels of service.


        Postal Service officials
       explained that American
            Airlines was a
        passenger airline with
           reliable, on-time
        performance and was
        awarded a contract to
         continue providing
                service.

        American Airlines jet
        preparing to depart at
       San Diego International
               Airport.



The FedEx Contract – On July 31, 2006, the U.S. Postal Service signed a new 7-year
national agreement with FedEx to transport time sensitive mail for the Postal Service,
including Express Mail®, Priority Mail®, and FCM. The new agreement specified an
immediate price reduction in all contract categories and allowed the Postal Service to
continue to outsource THS to contractors.




                                                   5
Air Networks – Federal Express Transportation Agreement –                                       NL-AR-10-010
 National Analysis

            On July 31, 2006, the
               Postal Service
            signed a new 7-year
              agreement with
                  FedEx.

             FedEx jets loading
             and preparing for
              departure from
                Newark, NJ,
               May 19, 2010.



In most cases, the Postal Service utilizes THS contractors to prepare and load mail into
containers for transport on FedEx planes. The contractors used include: Cargo Force,
Inc.; Evergreen-Eagle; Global Logistics Service, LLC; Integrated Airline Services, Inc.;
Metro Air Service; Matheson Flight Extenders; Quantem Aviation Services, Inc.; United
Parcel Service, Inc.; and Worldwide Flight Services.

The Postal Service’s Network Operations headquarters group is responsible for
establishing processes and providing guidance and oversight to area and local officials
in implementing operations associated with the agreement. Under the FedEx contract,
the Postal Service periodically negotiates with FedEx for mail transport capacity. As a
contract minimum, the Postal Service pays for 95 percent of the contracted capacity
regardless of whether it is used.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to assess national issues related to processes, guidance,
and oversight in implementing the FedEx Transportation Agreement and associated
operations. Our review was conducted to further address systemic or significant issues
identified in our prior audits3 of the eight Postal Service areas.

To accomplish our objectives in this audit and in our prior audits, we interviewed officials
from Postal Service Network Operations at headquarters and area offices. We also
interviewed Postal Service contract officials, including officials from FedEx and several
THS providers. During our work in the Postal Service areas, we visited facilities and
operations including airport mail centers, THS operations, and mail processing facilities.
We evaluated the types of mail transported; considered on-time service standards;
analyzed alternate solutions for making the best use of surface and air networks; and
observed operations.




3
  The overall objective of our prior Postal Service area audits was to determine whether selected FedEx
Transportation Agreement operations were effective and economical, and we issued reports addressing
transportation operational issues and monetary impacts associated with each area. Postal Service managers
generally agreed with our findings and recommendations and are taking corrective actions to address the issues
identified.




                                                         6
Air Networks – Federal Express Transportation Agreement –                    NL-AR-10-010
 National Analysis


       The Postal Service
        outsources THS
          operations to
        contractors, who
       build and tender air
          containers to
            FedEx for
         transportation.

        FedEx containers
         loaded by THS
          personnel for
        tender to FedEx,
        San Antonio, TX.



We also examined relevant documents, including:

       The Postal Service Integrated Air Strategy, dated January 9, 2006.

       The FedEx contract, dated January 10, 2001, and the extended FedEx contract,
        dated July 31, 2006.

       Postal Service contracts with various passenger airlines.

       Contracts with THS providers.

       Postal Service policies that govern network routing and on-time standards.

We examined computer-generated data to analyze mail volume, operational efficiency,
and costs. We did not audit or comprehensively validate the data; however, the large
amounts of data and its inaccessibility significantly constrained our work.

To address these data limitations, we applied alternate audit procedures. We discussed
the data with Postal Service officials, managers, supervisors, employees, and
contractors; we conducted source document examinations; and we observed and
conducted physical inspections. We also discussed our initial findings and
recommendations with senior Postal Service officials, considered their perspective, and
included their comments where appropriate. We also considered area management
responses to our audit reports in assessing nationwide operational issues related to the
FedEx contract.

We conducted this performance audit from March through September 2010 and
conducted work associated with the eight Postal Service areas from November 2005 to
May 2010. This audit was conducted in accordance with generally accepted
government auditing standards and included such tests of internal controls as we
considered necessary under the circumstances. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable




                                                   7
Air Networks – Federal Express Transportation Agreement –                                   NL-AR-10-010
 National Analysis

basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective. We discussed our observations and conclusions with
management during July and August 2010 and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

We issued six reports listed below that identified similar issues for all eight Postal
Service areas. We identified FedEx operational efficiency opportunities related to
surface mail classes flown on FedEx, FCM flown on FedEx, and FedEx bypass
container utilization. Management generally agreed with our findings and
recommendations; however, management did not always agree with the total monetary
impact.

                                                                                                Monetary
                                                             Report         Final Report
                     Report Title                                                                Impact4
                                                             Number             Date
                                                                                              (in millions)
    Air Networks – Issues In the Pacific Area              NL-AR-08-001      11/23/2007               $80.4
    Associated with a Major Postal Service
    Customer
    Air Networks – Federal Express Transportation          NL-AR-08-002       2/19/2008               $62.8
    Agreement – Pacific Area
    Air Networks – Federal Express Transportation          NL-AR-08-008       9/29/2008             $141.2
    Agreement – Western Area
    Air Networks – Federal Express Transportation          NL-AR-09-002        3/3/2009               $53.3
    Agreement – Southwest Area
    Air Networks – Federal Express Transportation          NL-AR-09-007       7/31/2009               $52.0
    Agreement – Southeast Area
    Air Networks – Federal Express Transportation          NL-AR-10-005       5/25/2010             $205.9
    Agreement – Capital Metro, Eastern, Great
    Lakes, and Northeast Areas




4
 Monetary impact amounts include more than $112.7 million in unnecessary questioned costs and an estimated
$482.9 million in funds put to better use over 10 years if corrective actions are taken.




                                                       8
Air Networks – Federal Express Transportation Agreement –                  NL-AR-10-010
 National Analysis

                             APPENDIX B: DETAILED ANALYSIS

Overall Assessment of Nationwide Operational Issues

We determined that Postal Service Headquarters needs to strengthen nationwide
processes, guidance, and monitoring in implementing the FedEx Transportation
Agreement. This would also help ensure the most efficient and effective transportation
of mail nationwide. From our previous audits, we determined that local officials were:

      Improperly transporting surface mail classes on FedEx.

      Using FedEx instead of lower cost commercial air carriers to transport FCM.

      Not maximizing the use of by-pass containers to avoid FedEx handling charges.
       See Appendix C for additional information for a summary of the results of our
       previous audits.

Since the beginning of our audit series, the OIG has recommended that the Postal
Service areas:

   1. Use surface transportation to the extent possible for mail that does not require air
      transportation to meet Postal Service on-time standards.

   2. Transport mail to the maximum extent possible using the service-responsive
      capacity of passenger airlines under contract with the Postal Service.

   3. Sort mail into bypass containers as appropriate.

Generally, management from the areas agreed with our findings and took actions to
address our recommendations. Some of the actions included consolidating the
processing of originating Standard and Periodical mail into fewer sites to prevent
surface mail from being flown, monitoring weekly headquarters’ reports that track
commercial airlift to maximize the usage of service-responsive carriers, and providing
additional instruction to ensure maximization of by-pass containerization to avoid
unnecessary handling charges.

Although these initiatives should have an impact on the efficiency of the selected
operations we audited in the Postal Service areas, additional actions, guidance, and
monitoring by Postal Service Headquarters are needed to improve compliance with the
FedEx Transportation Agreement and associated transportation and distribution
operations nationwide.




                                                   9
Air Networks – Federal Express Transportation Agreement –                                   NL-AR-10-010
 National Analysis



Monitoring Surface Mail Classes on FedEx

We determined that Postal Service Headquarters was not effectively monitoring the
types of mail flown on FedEx and not routinely assessing the magnitude of surface mail
classes flown on FedEx. This occurred because Postal Service officials were unfamiliar
with TRACS/CRA data that relates transportation costs to specific mail classes, and
officials were not using the data to assess operations. TRACS/CRA data has been
primarily used for ratemaking decisions and not for monitoring the types of mail flown on
FedEx. If TRACS/CRA data was provided to management and staff on a routine basis,
the information could be used to monitor and track volumes of mail by type to avoid the
additional cost of flying surface mail on FedEx.

The following photographs illustrate examples of surface mail classes we observed
dispatched for transport on the FedEx Day Network, which should have been put on
surface transportation:




      Standard Mail in First Class Letter Trays and Periodicals in Flat Tubs destined for transportation
           on FedEx, Atlanta Processing and Distribution Center (P&DC) (February 11, 2009) and
                                   Jacksonville P&DC (February 23, 2009).

Since inception of our audit work, headquarters officials reported certain new initiatives
that should lead to correction of these deficiencies. For example, the TRACS/CRA data
is being timely shared with Network Operations to monitor volumes and costs of
transporting surface mail classes on FedEx. Additionally, the causes and impacts of this
issue have been formally presented to all plant managers so they could pursue
corrective action. Also, areas have been instructed to monitor their plants’ sort programs
to identify those which are not properly segregating mail classes as appropriate during
distribution. Although action has been taken, issues still exist, and additional monitoring
is necessary to ensure continued compliance.




                                                     10
Air Networks – Federal Express Transportation Agreement –                    NL-AR-10-010
 National Analysis



Commercial Air Capacity

From our prior audits, we determined that Postal Service Headquarters and area
officials were not always effectively working together to validate the accuracy of mail
capacities provided by commercial carriers; ensure carriers’ complied with the provided
capacities; address local officials’ concerns over the ability of carriers to handle
provided capacities; and to make adjustments to capacities when necessary. Postal
Service area officials, in responding to our audit reports, cited challenges concerning
the capacity offered by commercial airlines that resulted in mail being flown on FedEx at
a higher cost. Some of the challenges included:

      Commercial air suppliers offering capacity that often did not match the dispatch
       and arrival profiles at processing facilities.

      Commercial air suppliers often overstating the capacity of their aircraft resulting
       in a service failure.

Area officials stated during our audit that much of the capacity offered by commercial air
carriers was unavailable at times needed by the Postal Service to meet service
commitments. On the other hand, headquarters’ officials stated the overwhelming
majority of FCM transported on FedEx has a 3-day service commitment; and therefore,
the mail had an additional 24 hours or more in the transportation window. This would
allow much of the mail to be carried by commercial carriers utilizing offered capacity and
still meet service commitments. Headquarters’ officials further stated that they are
willing to provide additional routing guidance to area transportation planners to ensure
mail is not unnecessarily moved on FedEx.




        Mail being loaded on
       American Airlines jet at
           Seattle-Tacoma
        International Airport.




Further, the Postal Service has established policies and systems for assigning mail to
ensure that it moves on intended routes, based on availability, service, and cost. When
conflicting issues occur, the Postal Service has procedures in place to address and
correct the processes.




                                                  11
Air Networks – Federal Express Transportation Agreement –                  NL-AR-10-010
 National Analysis



VAPs

We determined that headquarters officials could more effectively adjust the VAP or the
tender times to FedEx to allow THS contractors sufficient time to build bypass
containers. The FedEx Transportation Agreement states that the Postal Service will
tender 75 percent of its containers to FedEx by 0400 hours, and the remaining 25
percent by 0500 hours. A VAP has been established by headquarters at each THS
location that requires specific volumes of mail to arrive at certain time intervals. The
VAPs should allow sufficient time for THS contractors to build planned by-pass
containers before tendering them so as to avoid additional FedEx handling charges.

However, in some cases, the VAP results in less mail than the required 75 percent
arriving at THS locations before 0400 hours, and in other cases, results in large
amounts of mail arriving just before 0400 hours, making it impossible for the THS to
timely build and tender all of the planned bypass containers.

Conversely, there are many locations where the FedEx airplanes depart as late as 0700
hours to 0830 hours, and the “75 percent tendered by 0400” cutoff could be adjusted to
significantly later times. If the VAP and/or the FedEx tender times were adjusted, the
Postal Service could avoid unnecessary handling charges by achieving their bypass
goals.

As of July 2010, headquarters officials have undertaken a complete review of all VAPs
to determine feasibility and measure compliance with established requirements.
Additionally, instructions will be issued requiring processing plants to comply with
bypass container separations before dispatch to THS sites.

THS Representation

During our audit work at the eight Postal Service areas, we determined that Postal
Service representation at THS contractor sites was not standardized to ensure FedEx,
THS, and Postal Service operational procedures were consistently followed. Many
levels of Postal Service management and some craft employees were observed
monitoring THS operations. Sometimes their presence was only for a few minutes to a
couple of hours per day, and at some locations, there was no postal presence or
oversight at all.




                                                  12
Air Networks – Federal Express Transportation Agreement –                       NL-AR-10-010
 National Analysis



     The Postal Service outsources THS
     operations to contractors, who build
    and tender air containers to FedEx for
               transportation.

    FedEx container loaded by Matheson
    THS operations for tender to FedEx,
               Denver, CO.


We determined that Postal Service oversight at THS sites was assigned at the
discretion of the local district or plant manager, and many times, to individuals with little
knowledge regarding operations and contract requirements. We further determined that
these conditions exist because headquarters officials have not issued any policies or
requirements for standardized positions for postal representatives to work as liaisons at
the THS sites. If a proficient postal presence was maintained, Headquarters could more
effectively monitor FedEx-related operations and ensure local compliance with
established processes and procedures to help ensure mail arrives as intended at THS
locations.

Reinforcement of Policies and Procedures

Finally, we determined that headquarters officials could more effectively reinforce
existing policies and procedures, as well as provide additional guidance and training as
necessary, for processing and assigning mail, for building by-pass containers, and for
tendering mail to FedEx. Specifically, headquarters officials should ensure that:

          Only proper mail classes are assigned and dispatched via air transportation as
           required by National Dispatch Instruction (Logistics Order - Standard Operating
           Procedure 200807).5

          Air containers are properly prepared and forwarded to FedEx as required by the
           THS contracts and detailed in the FedEx by-pass transportation matrices.

          Mail is tendered in the specified manner and on-time to local THS facilities for
           preparation and dispatch to FedEx for transportation as detailed in the FedEx
           contract.

In our audits in the eight Postal Service areas, we found that local officials were not
always following established procedures. For example:

          At 48 processing facilities, we observed plant employees placing surface mail
           into First Class and Priority Mail containers or sacks for transportation on FedEx.



5
    Amended by LO SOP 200901, dated March 9, 2009.




                                                     13
Air Networks – Federal Express Transportation Agreement –                   NL-AR-10-010
 National Analysis

      At some facilities we observed that required bypass separations were not always
       being performed before mail arriving at THS sites, requiring THS employees to
       place bypass mail in mixed containers.

      At some THS sites, we observed and later confirmed with managers that mail
       routinely arrived late from local processing facilities requiring planned bypass
       containers to be converted to mixed containers so they could be tendered on-
       time to FedEx.

In addition, in some instances, local employees were not aware of the procedures.
Because local management and staff did not always follow these established policies,
procedures, and processes, the Postal Service incurred unnecessary costs.




                                                  14
Air Networks – Federal Express Transportation Agreement –                                     NL-AR-10-010
 National Analysis



                APPENDIX C: SUMMARY OF PREVIOUS AUDIT FINDINGS

We concluded in our previous audits that the Postal Service incurred unnecessary
costs, because local officials were improperly transporting surface mail classes on
FedEx, using FedEx instead of lower cost commercial air carriers to transport FCM, and
not maximizing the use of by-pass containers to avoid FedEx handling charges.

Surface Mail Classes on FedEx Day Turn

We identified large volumes of surface mail classes6 transported using the FedEx
Daytime Network (Day Turn) from all eight Postal Service areas over a 2-year period
using TRACS/CRA data. Postal Service policy requires transportation managers to
balance service and cost. Because surface mail classes are not as time sensitive as
Express, Priority, or FCM, the area transportation managers could have met the Postal
Service’s on-time standards by using less costly highway or rail transportation.




Our analysis of the areas determined that the Postal Service incurred excess costs, in
part, because employees at the areas’ processing plants did not properly segregate
surface mail classes (Standard, Periodicals, and Package Services) from First-Class™
and Priority Mail during distribution operations.


6
 Surface mail includes magazines, advertising, and merchandise shipped by major mailers such as publishers,
catalog companies, or online retail companies.




                                                       15
Air Networks – Federal Express Transportation Agreement –                                   NL-AR-10-010
 National Analysis



FedEx Versus Commercial Air

We identified 6.6 million cubic feet of FCM that were transported on FedEx when less
costly service-responsive capacity of passenger airlines was available in the eight
Postal Service areas over a 1-year period.7 According to Postal Service policies, FCM is
generally assigned by these priorities: surface transportation when on-time service
standards can be met; passenger airlines when FedEx contract requirements have
been met; and FedEx when air transportation is required and capacity on passenger
airlines or other commercial carriers is not available.




We determined from our analysis of the eight areas, the Postal Service incurred excess
costs because local officials did not follow mail assignment priorities by assigning mail
to less costly and available commercial air transport.

Mixed Versus Bypass Air Containers

We determined that the eight Postal Service areas incurred fees for more than 10.2
million mail bags, trays, tubs, or other mail handling units that FedEx unnecessarily
sorted over a 1-year period. The Postal Service tenders mail to FedEx in both bypass
and mixed containers. The FedEx matrix plan sets goals for bypass containers to be
tendered to FedEx to avoid added sorting costs associated with mixed containers.
Because the areas did not meet the planned bypass matrix, the Postal Service spent
more than necessary to sort mail using FedEx.


7
  Pacific Area: March 1, 2005, to February 28, 2006; Western Area: January 1, 2006, to December 31, 2006;
Southwest Area: January 1, 2007, to December 31, 2007; Southeast Area October 1, 2007, to September 30, 2008;
Capital Metro, Eastern, Great Lakes and Northeast Areas: May 1, 2008, to April 30, 2009. Dates apply to Mixed
Versus Bypass Air Containers chart.




                                                      16
Air Networks – Federal Express Transportation Agreement –                 NL-AR-10-010
 National Analysis




The eight areas incurred excess costs because Postal Service mail processing plants
did not adequately and/or timely separate and identify bypass mail before sending it to
the THS contractors.




                                                  17
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-010
 National Analysis

                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                  18
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-010
 National Analysis




                                                  19
Air Networks – Federal Express Transportation Agreement –   NL-AR-10-010
 National Analysis




                                                  20
